Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




     MEDICARE HOSPITAL
     OUTLIER PAYMENTS
     WARRANT INCREASED
         SCRUTINY




                    Daniel R. Levinson
                     Inspector General

                     November 2013
                     OEI-06-10-00520
EXECUTIVE SUMMARY: Medicare Hospital Outlier Payments Warrant
Increased Scrutiny
OEI-06-10-00520

WHY WE DID THIS STUDY

Medicare makes supplemental payments to hospitals, known as outlier payments, which
are designed to protect hospitals from significant financial losses resulting from
patient-care cases that are extraordinarily costly. Unlike predetermined payment amounts
for most Medicare hospital claims, outlier payments are directly influenced by hospital
charges.  Responding to problems caused by some hospitals aggressively increasing
charges, the Centers for Medicare & Medicaid Services (CMS) made policy changes in
2003 to ensure the accuracy of outlier payments. This report describes a more recent
distribution of such payments.

HOW WE DID THIS STUDY

We examined all hospital claims processed through Medicare's Inpatient Prospective
Payment System (IPPS) during calendar years 2008–2011. We calculated the amount
and volume of outlier payments and calculated each hospital’s outlier payments as a
percentage of its total IPPS payments. We also identified hospitals that received a
substantially higher percentage of Medicare IPPS reimbursements in outlier payments
than all other hospitals.

WHAT WE FOUND

Nearly all hospitals received outlier payments and some received a much higher
proportion of Medicare IPPS reimbursements from outlier payments. Specifically, outlier
payments to 158 hospitals averaged 12.8 percent of their Medicare IPPS reimbursements,
compared to an average of only 2.2 percent for all other hospitals. These high-outlier
hospitals charged Medicare substantially more for the same Medical Severity Diagnostic
Related Groups (MS-DRG), even though their patients had similar lengths of stay as
those in all other hospitals. Some MS-DRGs triggered outlier payments frequently, and
16 MS-DRGs accounted for over 41 percent of such payments.

WHAT WE RECOMMEND

In some cases, high charges could be the result of high costs because hospitals attract a
disproportionate share of exceptionally costly patients or apply costly technologies and
treatments. Still, the routine receipt of outlier payments for certain MS-DRGs at
high-outlier hospitals raises concerns about why charges for similar patient-care cases
vary substantially across hospitals. CMS agreed with our three recommendations to: (1)
instruct CMS contractors to increase monitoring of outlier payments; (2) include
information about the distribution of outlier payments with other publicly reported
hospital data; and (3) examine whether MS-DRGs associated with high rates of outlier
payments warrant coding changes or other adjustments.
TABLE OF CONTENTS
Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................3 

Findings........................................................................................................6 

           Nearly all hospitals received outlier payments and some

           received a much higher proportion of Medicare IPPS 

           reimbursements from outlier payments ...........................................6 

           High-outlier hospitals charged Medicare substantially more for 

           the same MS-DRGs, yet had similar average lengths of stay 

           and cost-to-charge ratios (CCR) ......................................................8 

           Some MS-DRGs triggered outlier payments frequently..................9 

           Sixteen MS-DRGs accounted for over 41 percent of outlier 

           payments ........................................................................................10 

Conclusion and Recommendations ............................................................13 

            Agency Comments and Office of Inspector General Response ....14 

Appendix....................................................................................................15 

           A: Example of the Effect of Charges and CCRs on Estimated 

           Costs and Outlier Payments ...........................................................15 

           B: Agency Comments ...................................................................16 

Acknowledgments......................................................................................18 

                     OBJECTIVES
                     1.	 To describe the distribution of Medicare outlier payments to hospitals.
                     2.	 To identify hospitals that received high-outlier payments.
                     3.	 To compare Medicare billing patterns between hospitals that received
                         high-outlier payments and all other hospitals.
                     4.	 To identify diagnoses commonly associated with Medicare outlier
                         payments.

                     BACKGROUND
                     Medicare reimburses most acute care hospitals for hospital inpatient
                     services through the Inpatient Prospective Payment System (IPPS).1 The
                     IPPS classifies each hospital discharge into 1 of approximately 746
                     Medicare Severity Diagnosis Related Groups (MS-DRG) on the basis of
                     the average cost of care for patients with similar diagnoses, paying a
                     predetermined base payment amount on each MS-DRG. Medicare adjusts
                     the payment amount to account for certain hospital-specific factors, such
                     as the hospital’s geographic area wage level and whether the hospital
                     provides education and training to medical residents (i.e., Indirect Medical
                     Education). Medicare also makes supplemental payments, known as
                     outlier payments,2 to compensate hospitals for “cases involving
                     extraordinarily high costs.”3 The purpose of Medicare IPPS outlier
                     payments, hereafter referred to as outlier payments, is to protect hospitals
                     from “large financial losses because of unusually expensive cases.”4
                     Outlier Payments
                     CMS uses a formula to determine the amount of outlier payments, if any,
                     provided for each IPPS claim.5 When Medicare makes an outlier payment,
                     a case must have estimated costs greater than the “fixed-loss cost
                     threshold.” The fixed-loss cost threshold is the sum of the MS-DRG
                     payment, the “outlier threshold” adjusted to reflect costs in a hospital’s
                     local market, and any add-on payments, which may include payments for
                     treating a high percentage of low-income patients (i.e., a disproportionate
                     share hospital adjustment), for being an approved teaching hospital (i.e.,

                     1
                       Social Security Act (SSA) § 1886(d); 42 U.S.C. 1395ww. 

                     2
                       Medicare outlier payments can take two forms: “operating” outlier payments and

                     “capital” outlier payments. For purposes this report, and in consultation with CMS 

                     officials at the outset of this study, we focus only on operating outlier payments, which 

                     are known to account for a large majority of all Medicare outlier payments. 

                     3
                       77 Fed. Reg. 27870, 28142 (May 11, 2012); 42 CFR § 412.80. 

                     4
                       68 Fed. Reg. 34494 (June 9, 2003). 

                     5
                       75 Fed. Reg. 50042, 50426-50431 (Aug. 16, 2010). 



Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                    1
                     an indirect medical education adjustment), and for cases involving new
                     technology. Medicare determines the amount of the outlier threshold each
                     year and publishes it in its annual IPPS Final Rule. For FY 2011, the
                     outlier threshold was $23,075. The estimated costs per case are
                     determined by multiplying a hospital’s covered charges on a claim by the
                     hospital’s operating cost-to-charge ratio (CCR).6 Generally, a hospital’s
                     CCR is calculated by dividing its aggregate operating costs by its
                     aggregate charges, with the CCR changing over time on the basis of
                     updated cost report data.7 Medicare makes outlier payments on the basis
                     of a marginal cost factor, which is equal to 80 percent of the estimated
                     costs above the fixed-cost loss threshold.8
                     To illustrate these calculations, consider a hospital that has a 0.7 CCR, no
                     add-on payments, and a $23,075 outlier threshold. Assume that the
                     hospital submits a claim to Medicare with covered charges of $100,000 for
                     an extraordinarily costly Medicare inpatient stay with a MS-DRG payment
                     amount of $10,000. In this case, the claim’s estimated cost is $70,000
                     ($100,000 x 0.7 CCR). The fixed-loss cost threshold is $33,075 (the sum
                     of the MS-DRG payment amount ($10,000) and the outlier threshold
                     ($23,075)).9 The amount subject to an outlier payment is $36,925,
                     calculated by subtracting fixed-loss cost threshold ($33,075) from the
                     estimated cost ($70,000). The outlier payment for the claim would be
                     $29,540 (80 percent of the $36,925 subject to an outlier payment). The
                     total payment from Medicare would be $39,540 – the MS-DRG payment
                     amount ($10,000) and the outlier payment amount ($29,540).
                     IPPS Outlier Payment Policy Changes
                     In the 2003 IPPS Final Rule, CMS made changes to its outlier payment
                     methodology to improve accuracy in determining whether cases are high
                     cost and to ensure that outlier payments are made only for truly expensive
                     cases.10 Before 2003, Medicare contractors used data from a hospital’s
                     most recent final-settled cost report when calculating a hospital’s CCR.
                     After a Medicare contractor accepts and tentatively settles a hospital’s cost


                     6
                       Consistent with this report examining only “operating” outlier payments, we refer only
                     to the “operating” CCR in this example and throughout the report.
                     7
                       For a further explanation of CCRs, see CMS, Outlier Payments. Accessed at
                     http://www.cms.gov/Medicare/Medicare-Fee-for-Service-
                     Payment/AcuteInpatientPPS/outlier.html on December 3, 2012. 

                     8
                       The marginal cost factor for burn cases is 90 percent. CMS, Medicare Claims 

                     Processing Manual, Pub. No. 100-04, Ch. 3, § 20.1.2. 

                     9
                       The formula used by CMS is more complex because CMS divides the outlier threshold 

                     into an operating portion and a capital portion. In this example, CMS would use the 

                     operating portion of the outlier threshold, which it would calculate by dividing the 

                     operating CCR by the sum of the operating CCR and the capital CCR. 

                     10
                        68 Fed. Reg. 34494 (June 9, 2003).

Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                 2
                     report, it can take 1–2 years before a cost report is final settled. CMS
                     indicated that some hospitals took advantage of this lag time to maximize
                     outlier payments by increasing their charges before their cost reports were
                     settled. These hospitals received excessive outlier payments because
                     Medicare calculated the payments using outdated CCRs that did not reflect
                     the hospitals’ higher charges. CMS indicated that this caused hospitals
                     that did “not aggressively increase their charges” to “not receive outlier
                     payments or receive reduced outlier payments for truly costly cases.”11
                     Recognizing the vulnerability, CMS changed the outlier methodology to
                     improve the accuracy of CCRs used to calculate outlier payments. With
                     the 2003 IPPS Final Rule, CMS required Medicare contractors to begin
                     using the most recently available cost reports to calculate CCRs.12 Instead
                     of relying solely on a hospital’s final-settled cost report, CMS required
                     contractors to update CCRs using the most recent tentatively settled cost
                     report or the most recent final-settled cost report, whichever is from the
                     most recent cost-reporting period.
                     Hospital Charges
                     Although hospital charges do not affect the Medicare payment amount on
                     most IPPS claims, hospital charges directly affect whether a hospital
                     receives an outlier payment and, if so, the amount of payment. In May
                     2013, CMS released data showing each IPPS hospital’s average charges
                     for the 100 procedures most frequently billed to Medicare.13 The data
                     show that charges vary substantially among the hospitals.

                     METHODOLOGY
                     Data Collection
                     This report outlines Medicare hospital operating outlier payments
                     (hereafter referred to as outlier payments), based on analysis of IPPS
                     claims in the Standard Analytic File (SAF) for services during calendar
                     years 2008–2011. We excluded claims paid through managed care
                     organizations and all hospitals exempt from IPPS (i.e., designated cancer
                     hospitals and hospitals in Maryland and the U.S. territories, which are not
                     paid under IPPS.)14,15 We also excluded hospitals that did not have at least
                     100 covered IPPS claims in each of the 4 years reviewed. We identified

                     11
                        68 Fed. Reg. 34494 (June 9, 2003). 

                     12
                        CMS, Program Memorandum Intermediaries Transmittal, A-03-058, July 3, 2003. 

                     13
                        CMS, Medicare Provider Charge Data. Accessed at http://www.cms.gov/Research-
                     Statistics-Data-and-Systems/Statistics-Trends-and-Reports/Medicare-Provider-Charge-
                     Data/index.html on May 21, 2013. 

                     14
                        We excluded 11 cancer research hospitals, 46 hospitals in Maryland, and 54 hospitals 

                     in U.S. Territories. 

                     15
                        Critical access hospitals are not included in the IPPS.

Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                  3
                     hospitals that received high-outlier payments by first calculating each
                     hospital’s percentage of IPPS payments received from outlier payments.16
                     We then identified hospitals with outlier payment percentages greater than
                     the 75th percentile plus 1.5 times the interquartile range.17 We hereafter
                     refer to these as high-outlier hospitals.
                     Using several hospital characteristics, we compared the percentage of each
                     characteristic in the high-outlier hospitals to the percentage of each
                     characteristic in all other hospitals. These characteristics included bed
                     size, total Medicare IPPS reimbursements (including outlier payments),
                     total outlier payments, ownership type, whether the hospital taught
                     medical residents (teaching hospital), and whether the hospital was
                     designated as urban or rural. For ownership type, hospitals were either
                     for-profit, nonprofit, or government. We identified a teaching hospital as
                     any that taught medical residents during the study period. Finally, we
                     employed CMS’s urban/rural classification, which uses the Core Based
                     Statistical Area (CBSA) to determine whether a hospital is urban or rural.
                     Data Analysis
                     Distribution of Outlier Payments. To analyze outlier payments, we totaled
                     all outlier payments and all IPPS payments at each hospital for each
                     calendar year. We counted the number of claims with outlier payments
                     and the number of IPPS claims for each hospital for each year. Finally, we
                     calculated percentages for each hospital by dividing the number and
                     amount of outlier payments by the number of claims and amount of IPPS
                     payments for each year and for the 4 years combined. We also determined
                     the percentage of claims that included an outlier payment by dividing the
                     number of claims with outlier payments by the total number of Medicare
                     IPPS claims. We calculated the average amount of outlier payment by
                     dividing the total amount of outlier payments by the number of claims
                     with outlier payments.
                     Measures of Hospital Billing Patterns. To compare Medicare billing
                     patterns between high-outlier hospitals and all other hospitals, we grouped
                     each hospital’s claims by MS-DRG. We totaled each hospital’s Medicare
                     IPPS charges, Medicare IPPS reimbursements, and number of claims by
                     MS-DRG for each year. We also totaled each hospital’s Medicare IPPS
                     charges, Medicare IPPS reimbursements, and number of claims with

                     16
                        We excluded 284 hospitals that did not have at least 100 claims in each year during
                     2008–2011 to reduce the likelihood that a hospital with only a few claims would skew
                     certain variables (e.g., percentage of IPPS payments in outlier payments).
                     17
                        Known as Tukey’s Method, this is a standard exploratory method for identifying
                     members of a population with high values on a given statistic compared to the rest of the
                     population when no established benchmark exists. See J.W. Tukey, Exploratory Data
                     Analysis, Addison-Wesley, 1977.

Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                  4
                     outlier payments by MS-DRG for each year. We calculated these same
                     statistics for the 4 years combined. Further, we developed an outlier
                     payment “trigger” rate by dividing the number of claims with an outlier
                     payment by the total number of claims by MS-DRG for each hospital for
                     the 4 years combined. We determined the average charge amount, average
                     reimbursement amount, and percentage and amount of change between
                     2008–2011 by MS-DRG at each hospital for each year and for the 4 years
                     combined.18 We also calculated the patients’ average lengths of stay for
                     each MS-DRG by subtracting the admission dates from the discharge
                     dates plus one day.19
                     We compared charges, charge growth rates, and lengths of stay between
                     hospitals with high-outlier payments and other hospitals for each
                     MS-DRG. To make the comparisons, we calculated the MS-DRG
                     averages for high-outlier hospitals by dividing the total dollar amount of
                     the claims by the total number of claims for each MS-DRG. We
                     calculated the same averages for all other hospitals by MS-DRG. We then
                     created a variable that represents the difference between the MS-DRG
                     average at high-outlier hospitals and the MS-DRG average for all other
                     hospitals. Finally, we calculated the average differences for each statistic
                     between MS-DRGs at high-outlier hospitals and MS-DRGs at all other
                     hospitals.20
                     Standards
                     This study was conducted in accordance with the Quality Standards for
                     Inspection and Evaluation issued by the Council of the Inspectors General
                     on Integrity and Efficiency.




                     18
                        We did not adjust dollar amounts over time for inflation.
                     19
                        We added one day to avoid instances in which the discharge date and admission date
                     occurred on the same day, resulting in a zero day stay.
                     20
                        For these statistics, we used hospital MS-DRGs that had more than 10 claims in the
                     year of comparison.

Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                              5
                     FINDINGS
                     Nearly all hospitals received outlier payments and
                     some received a much higher proportion of Medicare
                     IPPS reimbursements from outlier payments
                     During 2008–2011, Medicare paid approximately $15.8 billion in outlier
                     payments to the 3,186 hospitals that we reviewed. Nearly all hospitals
                     (97 percent) received at least one outlier payment during the 4-year period.
                     Further, 88 percent of hospitals received at least one outlier payment
                     during each of the 4 years. Medicare hospital outlier payments totaled
                     slightly less than $4 billion in 2008, 2010, and 2011 and exceeded
                     $4 billion in 2009. (See Figure 1.) Although the dollar amount of outlier
                     payments varied from year to year, the percentage of outlier payments
                     among all Medicare IPPS payments was similar during the 4-year study
                     period, about 4 percent of total IPPS payments.
                     Although only 2 percent of Medicare IPPS claims (different from
                     4 percent of payments) included outlier payments, these payments often
                     represented a substantial portion of the payments to hospitals for each
                     individual claim with an outlier. Overall, outlier payments were
                     40 percent of the total reimbursement for those claims. The average
                     outlier payment was $15,482, which does not include the MS-DRG
                     payment; 6 percent of outlier payments exceeded $50,000. For several
                     claims, the outlier payment exceeded $1 million; the largest during the
                     study period was $1.4 million for a single claim.21


                      Figure 1: Total Medicare Hospital Outlier Payments During 2008–2011
                                                              Outlier Reimbursements
                                                                      (Billions)
                        $5.00

                        $4.50

                        $4.00

                        $3.50

                        $3.00

                        $2.50

                        $2.00
                                          2008                   2009             2010     2011


                       Source: OIG analysis of Medicare IPPS claims, 2008–2011.




                     21
                        This claim was for MS-DRG 003, which is a tracheostomy requiring mechanical
                     ventilation for more than 96 hours.

Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                       6
                     One hundred-fifty eight hospitals received a high percentage
                     of Medicare IPPS reimbursements from outlier payments
                     We identified 158 hospitals that received outlier payments beyond a
                     statistically determined threshold of 8 percent of their total Medicare IPPS
                     payments.22 These high-outlier hospitals received an average of
                     12.8 percent of their Medicare IPPS payments from outlier payments
                     during 2008–2011. (See Table 1.) By comparison, the other
                     3,028 hospitals averaged only 2.2 percent of Medicare IPPS payments in
                     outlier payments.
                     Table 1: Comparison of High-Outlier Hospitals and All Other Hospitals
                                                                                  High-Outlier          All Other
                       Measurements
                                                                                    Hospitals           Hospitals
                       Number of hospitals                                                158                3,028
                       Average percentage of Medicare IPPS reimbursements
                                                                                        12.8%                2.2%
                       from outlier payments
                       Average percentage of Medicare claims that included an
                                                                                         8.3%                1.7%
                       outlier payment
                       Average amount of outlier payment on a claim with an
                                                                                      $22,843             $13,921
                       outlier
                       Average amount of Medicare IPPS reimbursements per
                                                                                  $223,111,865       $122,192,685
                       hospital (2008–2011)
                       Average amount of outlier payments per hospital
                                                                                   $25,944,213         $3,891,212
                       (2008–2011)
                       Average number of certified beds (2011)                            351                 226
                                                        23
                       Percentage of urban hospitals                                      96%                 72%

                       Percentage of teaching hospitals                                   47%                 31%
                     Source: OIG analysis of Medicare IPPS claims, 2008–2011.

                     High-outlier hospitals also received larger outlier payments on a higher
                     percentage of Medicare claims than all other hospitals. The average
                     outlier payment on an outlier claim was $22,843 for high-outlier hospitals,
                     compared to $13,921 for all other hospitals. Further, 8.3 percent of claims
                     paid to high-outlier hospitals included an outlier payment, compared to
                     only 1.7 percent of Medicare IPPS claims for all hospitals.
                     Generally, high-outlier hospitals were larger, more likely to be in urban
                     areas, and had a higher percentage of teaching hospitals, compared to all
                     other hospitals. On the basis of 2011 data, the 158 high-outlier hospitals
                     had about 50 percent more Medicare-certified beds than all other
                     hospitals, on average 351 beds, compared to 226 beds. High-outlier
                     hospitals averaged $223 million in total IPPS payments during
                     2008–2011, compared to an average of $122 million for all other
                     hospitals. Further, these high-outlier hospitals received an average

                     22
                        Using the Tukey Method, we determined that hospitals receiving 8 percent or more of
                     their IPPS payments in outliers received high-outlier payments. 

                     23
                        We did not identify hospitals that applied to CMS for reclassification of their urban to 

                     rural status.


Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                      7
                     $25.9 million in outlier payments during the 4 years, compared to $3.9
                     million on average for all other hospitals. Nearly all high-outlier
                     hospitals, 96 percent, were in urban areas, compared to 72 percent for all
                     other hospitals. High-outlier hospitals also had a higher percentage of
                     teaching hospitals (i.e., any hospital that taught any medical residents),
                     compared to all other hospitals.24, 25 Among these, larger teaching
                     hospitals were even more likely to be in the group of high-outlier
                     hospitals.26
                     Nearly all high-outlier hospitals received outlier payments
                     routinely for certain MS-DRGs
                     We found that high-outlier hospitals received outlier payments more
                     frequently for certain MS-DRGs during 2008–2011, compared to all other
                     hospitals. Among the 158 high-outlier hospitals, 147 received outlier
                     payments on 50 percent or more of their claims for one or more
                     MS-DRG.27 As the most extreme example, one hospital received outlier
                     payments on more than 50 percent of its claims for 46 different
                     MS-DRGs.

                     High-outlier hospitals charged Medicare substantially
                     more for the same MS-DRGs, yet had similar average
                     lengths of stay and CCRs
                     High-outlier hospitals charged Medicare, on average, 42 percent more for
                     the same MS-DRGs, compared to all other hospitals, yet had only slightly
                     longer lengths of stay (4 percent).28 As an extreme example, high-outlier
                     hospitals charged almost twice as much for MS-DRG 117 (respiratory
                     infection and inflammation), compared to all other hospitals, and the
                     average length of stay for the same MS-DRG at high-outlier hospitals was
                     only 10 percent longer.29 Further, for about one-third of MS-DRGs,

                     24
                        For this analysis, we included any hospital in the group of teaching hospitals that
                     taught medical students as measured by the interns-to-bed ratio in the Provider Specific
                     File.
                     25
                        We found no difference between the two groups regarding case mix and whether the
                     hospital was for-profit, nonprofit, or government. 

                     26
                        Twenty-nine percent of high-outlier hospitals were “larger teaching hospitals” (i.e., 

                     teaching hospitals with greater than a 15 percent ratio of medical students-to-beds), 

                     compared to only 11 percent for all other hospitals. Larger teaching hospitals are known 

                     to attract some of the most difficult and expensive cases. 

                     27
                        We calculated this statistic using the combined number of claims during 2008–2010.
                     28
                        We excluded MS-DRGs at hospitals with fewer than 10 claims in a year to reduce the
                     likelihood that a small number of claims would skew the MS-DRG average.
                     29
                        For MS-DRG 177, respiratory infection and inflammation, charges at high-outlier
                     hospitals averaged $77,076, compared to $42,697 at all other hospitals. The average
                     length of stay was 10.7 days at high-outlier hospitals, compared to 9.6 at all other
                     hospitals.

Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                   8
                     high-outlier hospitals had higher average charges and shorter lengths of
                     stay when compared to all other hospitals. This suggests that high charges
                     are not necessarily associated with more care for patients, as measured by
                     average length of stay.
                     High-outlier hospitals had similar average CCRs, compared to all other
                     hospitals, which means that the higher charges by the hospitals directly
                     resulted in larger and more frequent outlier payments. As mentioned,
                     Medicare applies a hospital’s CCR to the covered charges on a claim to
                     determine the estimated cost of services covered by the claim. The
                     amount of the estimated cost determines whether Medicare makes an
                     outlier payment and the amount received. In 2008, the average CCR at
                     high-outlier hospitals was the same as the average CCR for all other
                     hospitals, 0.35. CCRs declined, on average, during 2008–2011, to 0.30 at
                     high-outlier hospitals and to 0.33 at all other hospitals. Although the
                     high-outlier hospitals’ had higher charges, their CCR (i.e., .30) was not
                     significantly lower than the CCR of all other hospitals (i.e., .33).
                     Therefore, the higher charges led Medicare to calculate higher estimated
                     costs for the high-outlier hospitals, and paying larger, more frequent
                     outlier payments.
                     An example in Appendix A illustrates how the charges and CCRs affected
                     outlier payments for a single MS-DRG at one high-outlier hospital.
                     Some MS-DRGs triggered outlier payments frequently
                     Thirteen MS-DRGs triggered outlier payments on at least 25 percent of
                     each MS-DRG’s claims during 2008–2011. (See Table 3.) Combined,
                     this group of MS-DRGs triggered outlier payments on 29 percent of the
                     claims that included one of these MS-DRGs. MS-DRG 215 triggered the
                     highest percentage of outlier payments – 37 percent. High-outlier
                     hospitals triggered outlier payments on 58 percent of claims from this
                     group of MS-DRGs, compared to 32 percent for all other hospitals.




Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                   9
Table 2: MS-DRGs with the Highest Outlier Trigger Rates During 2008-2011
                                                                                          Number of    Number
                                                                                                                   Trigger
MS-DRG Description                                                         MS-DRG            Claims   of Outlier
                                                                                                                      Rate
                                                                                          2008-2011      Claims
Other heart assist system implant                                                   215        660          245     37.1%
Heart transplant or implant of heart assist system with major
                                                                                    001       4,697       1,709     36.4%
complication/comorbidity (MCC)
Heart transplant or implant of heart assist system without MCC                      002       1,077         370     34.4%

Pancreas transplant                                                                 010        426          138     32.4%

Lung transplant                                                                     007       1,892         602     31.8%
Extensive burns or full thickness burns with mechanical
                                                                                    927        715          226     31.6%
ventilation 96+ hours (hrs) with skin graft
Liver transplant with MCC or intestinal transplant                                  005       3,788       1,181     31.2%
Intracranial vascular procedures with primary diagnosis (PDX)
                                                                                    020       4,718       1,417     30.0%
hemorrhage with MCC
Tracheostomy with mechanical ventilation 96+ hrs or PDX
except face, mouth, and neck with major operating room (OR)                         003      86,321      24,757     28.7%
procedure
Combined anterior/posterior spinal fusion with MCC                                  453       5,268       1,431     27.2%
Spinal fusion except cervical with spinal curvature, malignancy,
infection or 9 or more fusions without complication or comorbidity                  456       4,973       1,325     26.6%
(CC) or MCC
Allogeneic bone marrow transplant                                                   014        639          162     25.4%
Chemo with acute leukemia as secondary diagnosis or with
                                                                                    837       5,684       1,431     25.2%
high-dose chemotherapy agent with MCC
  Total                                                                                     120,858      34,994     29.0%

Source: OIG analysis of Medicare IPPS claims, 2008–2011.




                        Sixteen MS-DRGs accounted for over 41 percent of
                        outlier payments
                        Medicare made over 41 percent of its outlier payments during 2008–2011
                        for claims categorized in 16 of the 746 MS-DRGs. (See Table 2.) Outlier
                        payments for these 16 MS-DRGs totaled $6.5 billion during the study
                        period. The single MS-DRG associated with the most outlier payments
                        was MS-DRG 003 (Tracheostomy with required ventilation), which
                        accounted for $1.3 billion (8.3 percent) in outlier payments during
                        2008–2011.




  Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                            10
 Table 3: Sixteen MS-DRGs With the Highest Amount of Outlier Payments During 2008-2011



                                                                              Total Medicare     Total Amount      Percentage
MS-DRG Description                                            MS-DRG                   IPPS          of Outlier   of All Outlier
                                                                            Reimbursements          Payments         Payments


Tracheostomy with mechanical ventilation
96+ hrs or PDX except face, mouth, and neck with                    003      $10,500,931,816    $1,329,228,265              8.3
major OR procedure

Major small and large bowel procedures with MCC                     329        $6,190,669,762    $627,430,445               3.9

Tracheostomy with mechanical ventilation
96+ hrs or PDX except face, mouth, and neck without                 004        $6,136,675,668    $607,071,314               3.8
major OR procedure
Infectious and parasitic diseases with OR procedure
                                                                    853        $6,117,496,303    $611,833,593               3.8
with MCC

Septicemia or severe sepsis without mechanical
                                                                    871      $13,440,016,369     $505,857,309               3.1
ventilation 96+ hrs with MCC


Major cardiovascular procedures with MCC                            237        $3,276,436,385    $347,006,348               2.1


Respiratory system diagnosis with ventilator support                207        $4,666,072,631    $324,024,478               2.0


Septicemia or severe sepsis with mechanical
                                                                    870        $4,276,595,714    $306,382,518               1.9
ventilation 96+ hrs


Extensive OR procedure unrelated to PDX with MCC                    981        $3,376,069,830    $296,071,879               1.8


Cardiac valve and other major cardiothoracic
                                                                    219        $3,150,583,161    $272,145,846               1.7
procedure with cardiac catheter with MCC


Other vascular procedures with MCC                                  252        $3,372,929,090    $243,139,762               1.5


Cardiac valve and other major cardiothoracic
                                                                    216        $2,709,864,558    $215,418,403               1.3
procedure with cardiac catheter with MCC


Heart failure and shock with MCC                                    291        $7,282,187,658    $205,765,403               1.3


Stomach, esophageal and duodenal procedures with
                                                                    326        $1,747,150,159    $197,323,546               1.3
MCC


Spinal fusion except cervical without MCC                           460        $5,454,603,905    $197,877,498               1.2


Coronary bypass with cardiac catheter with MCC                      233        $2,715,961,405    $182,008,343               1.2


 Total                                                                       $84,414,244,413    $6,468,584,949           40.6%

 Source: OIG analysis of Medicare IPPS claims, 2008–2011.




   Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                                 11
                     High-outlier hospitals had a similar percentage (8.6 percent) of their
                     MS-DRGs coming from the 16 high MS-DRGs, compared to all other
                     hospitals (8.5 percent). However, despite similar percentages of claims
                     from these 16 high MS-DRGs, high-outlier hospitals received outlier
                     payments about 3 times as frequently (23 percent), compared to all other
                     hospitals (7 percent).




Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                 12
                     CONCLUSION AND RECOMMENDATIONS
                     Outlier payments are intended to protect hospitals from financial losses
                     resulting from extraordinarily costly cases. Unlike predetermined
                     payment amounts for most Medicare hospital claims, outlier payments are
                     directly influenced by hospital charges. Although nearly all hospitals
                     received outlier payments during 2008–2011, we found that some received
                     such payments routinely and that a small number of MS-DRGs accounts
                     for a large proportion of outlier payments. High-outlier hospitals charged
                     Medicare substantially more for the same MS-DRGs, yet had similar
                     average lengths of stay and CCRs. This finding is consistent with data
                     released by CMS in May 2013 showing substantial differences in hospital
                     charges for the 100 most common inpatient claims. It was beyond the
                     scope of this evaluation to determine why certain hospitals routinely
                     charged Medicare more than other hospitals for the same MS-DRGs or
                     how their submitted charges related to the actual cost of patient care. In
                     some cases, high charges could be the result of high costs because some
                     hospitals attract a disproportionate share of exceptionally costly patients or
                     apply costly technologies and treatments. Still, the routine receipt of
                     outlier payments for certain MS-DRGs at high-outlier hospitals raises
                     concerns about why charges and estimated costs for similar patient-care
                     cases vary substantially across hospitals.
                     Therefore, we recommend that CMS:
                     Instruct Medicare Contractors To Increase Monitoring of
                     Outlier Payments
                     CMS could develop thresholds that prompt further review by Medicare
                     contractors of hospitals with claims exceeding the specified thresholds.
                     These thresholds could include charges, estimated costs, percentage of
                     MS-DRGs that result in outlier payments, and the ratio of outlier payments
                     to all IPPS payments.
                     Include Information About the Distribution of Outlier Payments
                     with Other Publicly Reported Hospital Data
                     CMS publicly reports information about hospital charges to Medicare for
                     common procedures, as well as measures of hospital quality, such as
                     information contained in the Hospital Compare Web site. CMS should
                     supplement its public reporting with information about hospital outlier
                     payments, including the distribution of outlier payments across
                     hospitals. Such public reporting would provide greater transparency
                     regarding Medicare payments to hospitals, further inform the public and
                     stakeholders about how Medicare distributes limited outlier payment
                     dollars, and demonstrate the direct effect increased charges can have on


Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                       13
                     overall Medicare payments to hospitals. CMS could also consider
                     including information about outlier payments in reports it issues to
                     individual hospitals, such as in its Program for Evaluating Payment
                     Patterns Electronic Reports (PEPPER), which uses Medicare data to
                     provide comparisons of individual hospitals to all other hospitals on
                     various statistics.
                     Examine Whether MS-DRGs Associated With High Rates of
                     Outlier Payments Warrant Coding Changes or Other
                     Adjustments
                     Although outlier payments are designed to compensate hospitals for
                     extraordinarily costly cases, we found that 16 of the 746 MS-DRGs
                     accounted for over 40 percent of outlier payments. Further, 13 MS-DRGs
                     had outlier payments on at least 25 percent of each MS-DRG’s claims, one
                     of which had outlier payments on 37 percent of the claims. This suggests
                     that certain MS-DRGs may result in outlier payments for reasons inherent
                     to the MS-DRG, rather than for extraordinarily costly cases. CMS should
                     consider whether any changes are needed for such MS-DRGs.

                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     In its comments on the draft report, CMS concurred with our
                     recommendations and described current and future activities to improve
                     scrutiny of outlier payments.




Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                 14
                       APPENDIX A
                       Example of the Effect of Charges and Cost-To-Charge Ratios
                       (CCR) On Estimated Costs and Outlier Payments
                       Table A1 shows how high charges and a CCR similar to the national
                       average increased the amount of outlier payments at one
                       high-outlier hospital. The table compares the national average to one
                       high-outlier hospital for Medical Severity-Diagnostic Related Group
                       (MS-DRG) 003 (tracheostomy requiring mechanical ventilation for over
                       96 hours).
                       	 The hospital charged Medicare about 3.4 times the national average for
                          MS-DRG-003 in 2008 and 2011.
                       	 The hospital had CCRs about the same as the national average during
                          both 2008 and 2011.
                       	 Medicare estimated the hospital’s cost for MS-DRG-003 was about
                          3.4 times greater than the national average in both 2008 and 2011.30
                       	 Medicare paid the hospital an average outlier payment about 4.5 times
                          greater than the national average for providing services related to MS-
                          DRG-003 during 2008–2011.
                       	 Medicare paid outlier payments to the hospital for 96 percent
                          of MS-DRG-003 claims during 2008–2011, compared to the national
                          average for all hospitals of 29 percent.

Table A1: Comparison of One Hospital From the 158 High-outlier Hospitals and the
National Average
                                                                                                  Average of All
Measurement                                                                          Hospital
                                                                                                      Hospitals

Average charge, 2008                                                               $1,456,647          $430,641

Average charge, 2011                                                               $1,631,441          $475,323

CCR (2008/2011)                                                                     0.35/0.33          0.35/0.33

Average estimated costs, 2008                                                       $509,826           $150,724

Average estimated costs, 2011                                                       $538,375           $156,856

Average outlier payment per claim, 2008–2011                                        $242,072            $53,691

Percentage of claims with outlier payment for MS-DRG 003, 2008–2011                      96%               29%

Source: Office of Inspector General analysis of Medicare IPPS claims, 2008–2011.




                       30
                         Estimated costs are the product of the charges on a claim and the hospital CCR.
                       Estimated costs at the hospital were $509,826 ($1,456,647 X 0.35) in 2008, compared to
                       the national average $150,724. In 2011, estimated costs increased to $538,375 at the
                       hospital, compared to $156,856 for the national average.

 Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                   15
                      APPENDIX B
                      Agency Comments




                                                                                                                .1dmi~<#Ntor
                                                                                                                Wu~n . C<:;WW1




                                  DATE: 	        SEP 23 2013
                                  TO: 	          Daniel R. lcvinlKln
                                                 Inspector (icneral

                                  FROM: 	        Marilyn Ti\-e nm.'T   /S/
                                                 Administrator

                                  SUBJECT: 	 Office ofln~p~-ctor General (OIG) Draft Report: llospltal Outlier P.tyments
                                             Warrantlncr.::ascd Scrutiny (OE1-06-10-00)20J

                                  The Ct:nters for Medicaro &. Medicaid &.'rrices (CMS) appredat~:S the opportunit) to r~vkw and
                                  e<1mmcnt on tne above subjcet OIG Draft Report OIG's objt~tiws lbr this study arc to-( I)
                                  Describe the dlstrihution ofMcdkare outlier paymcn.ts to Inpatient Jlrospt.>clive Payment Systt'im
                                  tiPPSt hosrital~: (:!') Identify hospitals tha.t re~dved hl!h·oudier pa>mcnt~: 0) Compare
                                  Medicate billing pattt:ms between hospitals that received high-outlier payments and all other
                                  t~nspitals; <~nd (4) Identify diagnoses cnmmonly associated whh Medicare outlier payments. The
                                  OIG rt(omnwodaliuns lltld CMS's r~sponses to those re(ommeodatiMs are di~~~d below.

                                  01{1 Reeommrndlltion

                                  The OlG r.:commcnds that CMS instruct its C<1ntrncton; to increase monitoring or outlier
                                  payments.

                                  CMS Rcs ponst

                                  The CMS cone~ and bdievcs that llUr currt!nt guiddi~s It> Medicare contractors provide
                                  S'llfficient monir11ring of outlier naynwms.

                                  OIQ Rtcommtnch!tlon

                                  The OIG recnmmcnd$that CMS include infonnatiun abolltthe distributl(m of outlier pa} ITIC'nl5
                                  with other publicly reported hospital dalll.



                                  The CMS <.:otll.1.11 s ~' iih this rteommendation. This information i~ al.n:ady publicly a,•ailablc
                                  through the Med ic~ Provider Analysis and review file.




Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                                                         16
                     APPENDIX B
                     Agency Comments Continued




Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)   17
                     ACKNOWLEDGMENTS
                     This report was prepared under the direction of Kevin Golladay, Regional
                     Inspector General for Evaluation and Inspections in Dallas; Blaine Collins,
                     Deputy Regional Inspector General; and Ruth Ann Dorrill, Deputy
                     Regional Inspector General.
                     Amy Ashcraft served as team leader for this study, and Ben Gaddis served
                     as lead analyst. Other Office of Evaluation and Inspections staff from the
                     Dallas regional office who conducted the study include
                     Leah K. Bostick and Nathan Dong. Central office staff who provided
                     support include Talisha Searcy and Christine Moritz.




Medicare Hospital Outlier Payments Warrant Increased Scrutiny (OEI-06-10-00520)                    18
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
